FEC -- Semiannual Report:  Executive Summary (3/95)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending March 31, 1995
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General
Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period October 1, 1994 through March 31, 1995.
During this reporting period, the OIG became fully staffed with a total of four positions.  The senior auditor position had been vacant for several months.
An audit of the Federal Election Commission's fiscal year 1994 Payroll expense and related accounts was started this period and both auditor's are currently working on this project.  The entrance conference has been conducted and the Internal Control Review phase of the audit has been completed.  The testing stage is now in process and the audit will be released during the current reporting period.
No new investigations were opened and no investigations were closed during this reporting period.
The Office of Inspector General has begun participating in IGNet and has appointed a staff auditor to represent the OIG as a core member of the IGNet and attend all meetings.  We have also provided three audit report summaries and the Executive Summary of our last semiannual for posting on the IGNet.  These summaries are now available to interested parties on-line via the Internet.
A peer review was conducted on our office by another OIG. At the close of the reporting period, we were awaiting the draft report.  The results of the peer review will be reported in the next semiannual.